<html>
<title> - AN OVERVIEW OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION BUDGET FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                AN OVERVIEW OF THE NATIONAL AERONAUTICS
                    AND SPACE ADMINISTRATION BUDGET
                          FOR FISCAL YEAR 2013

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        WEDNESDAY, MARCH 7, 2012

                               __________

                           Serial No. 112-68

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-126 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY














                            C O N T E N T S

                        Wednesday, March 7, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    14
    Written Statement............................................    16

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    18
    Written Statement............................................    21

Prepared Statement by Representative Jerry Costello, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives, Subcommittee on Space and 
  Aeronautics....................................................    23

                               Witnesses:

Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration
    Oral Statement...............................................    28
    Written Statement............................................    31

Discussion.......................................................    48

             Appendix 1: Answers to Post-Hearing Questions

Hon. Charles F. Bolden, Jr., Administrator, National Aeronautics 
  and Space Administration.......................................      

Name.............................................................    77

             Appendix 2: Additional Material for the Record

Additional Material Submitted by Hon. Charles F. Bolden, Jr., as 
  Requested During Hearing.......................................   108

Letter to Chairman Ralph M. Hall from Charlene M. Anderson, 
  Associate Director, the Planetary Society......................   112

Additional Information...........................................   115

 
AN OVERVIEW OF THE NATIONAL AERONAUTICS AND SPACE ADMINISTRATION BUDGET 
                          FOR FISCAL YEAR 2013

                              ----------                              


                        WEDNESDAY, MARCH 7, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 3:08 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. I say good afternoon to you and 
welcome to today's hearing entitled, ``An Overview of the 
National Aeronautics and Space Administration Budget for the 
Fiscal Year 2013.'' In front of you are packets containing the 
written testimony, biography, and truth in testimony disclosure 
for today's witness, the Administrator of National Aeronautics 
and Space Administration, our friend, Charles F. Bolden.
    I recognize myself for five minutes for an opening 
statement.
    Mr. Bolden, I want to thank you, as always, for taking time 
from your very busy schedule and appear before our Committee. I 
understand you were with the Senate all morning, so you must be 
real warmed up and ready to go here for us. I realize a lot of 
work and effort goes into these appearances and takes time and 
takes your time, and we appreciate it. And I also understand 
that this makes this a very long day for you, you and your 
staff. And I thank you again.
    We are here today to discuss the President's 2013 budget 
for NASA. The proposal essentially comes in at the same 
spending levels as of this fiscal year, although when taking 
into account inflationary effects, the agency's purchasing 
power is slightly diminished. But given the tough fiscal times 
we are in, I think the agency's top-line request is reasonable.
    NASA's human spaceflight activities accounts for about 45 
percent of the agency's budget, supporting the International 
Space Station, development of a new heavy-lift launch system, 
and development of commercial crew and cargo capabilities. I 
continue to be deeply concerned that the Commercial Cargo 
Program's schedule keeps slipping to the right. All of us 
understand how important commercial cargo is to our 
International Space Station, and it is my sincere hope that 
both SpaceX and Orbital will complete successful demonstration 
flights later this spring, to be continued.
    Commercial crew gives me greater pause, however. I have yet 
to be convinced that a viable commercial market is going to 
emerge for human orbital missions other than NASA-funded ferry 
flights to and from the Station. Yet NASA continues to 
subscribe to the theory that there is a sufficient market to 
sustain at least two commercial crew launch systems and is 
putting large sums of tax dollars at risk to pursue this 
strategy. I hope my misgivings are wrong, but based on what I 
have seen to date, I am not optimistic.
    I am also troubled by NASA's inability to impose crew 
safety requirements on participants in the upcoming round of 
the Commercial Crew Development Program. The third phase, which 
will kick off this summer, funds participants under Space Act 
Agreements to design fully integrated launch systems. While I 
understand that companies have every incentive to comply with 
NASA's safety standards, it is my strong conviction that at 
this stage of design, there should be no discretion about 
safety. NASA should have unfettered insight of the systems 
before companies begin actual production.
    Lastly, with regard to the Human Spaceflight Program, I 
continue to be frustrated that the Space Launch System and 
Orion crew capsule are not being developed quickly enough. 
Current plans indicate they won't be operational until 2021, 
which conceivably comes after the International Space Station 
is retired. SLS and Orion deserve higher priority. Should the 
Russians or commercial providers suffer any disruptions, we 
will have no means of getting our crews to or from the 
International Space Station.
    Turning now to NASA's science portfolio, I am generally 
pleased with the budget request but do have issues with two 
related programs; NASA's decision to withdraw from the 2016 and 
2018 ExoMars Mission with the European Space Agency and the 
proposed reduction to the Planetary Sciences budget.
    For the last several years, both Congress and NASA have 
repeatedly expressed the desire to more fully collaborate with 
international partners to help defray the costs of future 
flagship missions. There is a growing acknowledgement from many 
quarters that NASA simply can't afford to go it alone, and if 
we are to pursue ambitious missions that promise to do exciting 
science, NASA needs to engage and work with other nations to 
share in the burden of funding, building, and operating these 
very complex projects.
    The ExoMars missions are of high importance and visibility 
to the Europeans and NASA, seemingly in good faith, agreed in 
2009 to join forces with the European Space Agency. But with 
the unveiling of the 2013 budget, NASA has reneged on its 
commitment, forcing the Europeans to search for other partners 
if they hope to keep ExoMars alive.
    There is no doubt in my mind that NASA's decision to 
withdraw from ExoMars seriously imperils the ability of ESA to 
keep moving forward with this program. It also imperils NASA's 
ability to be viewed as a trustworthy partner on any future 
collaborations.
    The decision likewise flies in the face of the latest 
planetary decadal survey which named Mars sample return as its 
top priority. It ignores the wisdom of our own community of 
scientists who labored hard to put together a well-reasoned 
roadmap.
    Speaking now about Planetary Sciences, as well as Mars, I 
am puzzled that NASA would choose to cut one of its most 
productive and successful Science Programs in this era of tough 
choices. Typically good behavior is rewarded but in this 
instance it appears that NASA's successes at Mars, Saturn, and 
Mercury have garnered the opposite reaction.
    Mr. Administrator, I trust you will take these concerns in 
the sober spirit in which they were delivered and convey them 
to the White House. We want NASA to succeed in all its 
endeavors, but we seem to disagree on how best to achieve that 
goal.
    [The prepared statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. I now recognize my good friend and fellow 
Texan, Eddie Bernice Johnson, for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Hall, and let me say 
good afternoon and welcome back, Administrator Bolden. Today 
might not be as smooth sailing as you would like.
    Today's hearing is an important one to this Committee 
because NASA is a critical part of the Nation's research and 
development enterprise, as well as being a source of 
inspiration for our young people and a worldwide symbol of 
American technological prowess and goodwill. We need NASA to 
succeed.
    It almost goes without saying that NASA's success will 
depend not just on the amount of funding it receives, but also 
on whether it is given tasks that are executable, policy 
direction that is clear, and a funding environment that is more 
predictable than it has been in recent years.
    Which brings me to NASA's fiscal year 2013 budget request, 
a request that cuts NASA's budget by about a half percent. The 
good news is that the cut is only a half percent, which can be 
taken as good news given the fiscal challenges the government 
is facing.
    On the other hand, I think that the important role that 
NASA plays in pushing innovation and in meeting daunting 
scientific and technological challenges argues for a bigger 
commitment to the agency than either the Administration or 
Congress is currently making. I fear that years from now we are 
going to question why we didn't recognize how important it is 
to maintain our investments in research and innovation and to 
continue to provide the means to inspire our young students, 
even in challenging economic times.
    That said, NASA's constrained funding makes it doubly 
important for us to make sure that the budget request before us 
is one that is well constructed and sustainable. I know that 
NASA Administrator Bolden has one of the toughest jobs in town 
and will argue forcefully in his testimony that it is, and I 
respect that. I respect the hard work, and I respect everything 
he has done to implement whatever budget he is given.
    Yet as Members of Congress, we have to take a hard look at 
the priorities in this budget and be convinced that they make 
sense. Based on what I have seen so far, I have to say that I 
still have unanswered questions about it.
    For example, this year's NASA budget request would cut 
NASA's Planetary Exploration Program by over $300 million, a 21 
percent cut, with more cuts in the outyears. It is hard for me 
to believe that such cuts won't do significant damage to our 
Planetary Exploration Program, a program that has been a 
highly-successful scientific undertaking that has captured the 
imagination of people around the world. I want to know why such 
cuts were made, and what, if anything, could we gain by making 
them.
    More broadly, I am puzzled by the de facto priorities 
contained in this year's NASA budget request. That is, this 
budget would cut funding for NASA's overall Science Program. It 
would cut funding for NASA's Education Program. It would cut 
funding for NASA's Aeronautics Program. It would cut funding 
for the operation of NASA's centers and headquarters, and it 
would cut funding for the Space Launch System and the Orion 
Multi-Purpose Crew Vehicle Programs. Despite SLS and Orion 
being called out as an agency priority by NASA, and despite 
Congress's direction that they be available as a crew in cargo 
transportation backup capability if needed.
    On the other side of the balance sheet, funding for space 
technology would increase by almost 22 percent, and funding for 
NASA's Commercial Crew Program would more than double to almost 
$830 million.
    I can understand providing more funding to NASA's Space 
Technology Program. Investing in technology is an investment in 
the agency's future, and NASA's Space Technology funding has 
lagged in recent years.
    I have a lot more difficulty understanding the rationale 
for cutting all of the worthy programs I listed a minute ago in 
order to provide such a huge increase for the Commercial Crew 
Program. It is not because I have anything against the 
companies who are pursuing commercial crew contracts. I have 
heard them testify. They can be very exciting. Their enthusiasm 
is infectious, and I wish them all well.
    But as a steward of the taxpayer's dollars, I cannot let 
enthusiasm override the need for responsible oversight. 
Administrator Bolden, you are probably tired of hearing me ask 
the same questions year after year, but I still haven't gotten 
answers from the agency that would justify endorsing the course 
you are taking.
    For example, NASA still has not provided us with an 
independent cost and schedule estimate for the Commercial Crew 
Development Program, and we basically have to take it on faith 
that your budget requests are neither too small nor too large 
and that these vehicles will show up before it is too late for 
them to provide more than a year or two of support for the 
International Space Station.
    Neither has NASA provided us with a good estimate of what 
it will cost the taxpayer for NASA astronauts to make use of 
these commercial crew services. But we do know that in using 
NASA's own budgetary projections, the full cost per seat, when 
NASA's share of the development cost is factored in, is likely 
to be much greater than we are being charged by the Russians.
    That might be justifiable if the government's investment 
was opening up large new markets, but as I said last year, so 
far the only potential non-NASA markets you have identified to 
Congress are super-wealthy space tourists and non-U.S. 
astronauts. And I can't justify to my constituents the 
expenditure of their tax dollars so that the super rich can 
have joy rides.
    And finally, NASA has yet to provide a convincing 
explanation of why it reversed course and scrapped its plan to 
use FAR-based contracts, contracts that allow NASA to ensure 
that its safety and performance requirements are met for 
whatever systems it funds. I will not belabor the point, but 
Congress is going to need a lot more concrete justification 
than it has been given to date if we are to have confidence 
that the expenditures NASA is asking us to make would be money 
well spent.
    And so I know there will be much to discuss today, Mr. 
Bolden, and I, again, want to thank you for being here, and I 
look forward to your testimony.
    I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Hall. The gentlelady yields back. Thank you, Ms. 
Johnson.
    And if there are Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.

          Prepared Statement of Representative Jerry Costello



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    And before introducing our witness, I would like to ask 
unanimous consent to insert into the hearing record at this 
point a letter dated March 7, 2012, submitted by the Planetary 
Society.
    Hearing no objection, it is so ordered.
    [The information may be found in Appendix 2.]
    Chairman Hall. Mr. Administrator, thank you for being here, 
and I am honored to get to introduce you again. Charlie Bolden 
serves as Administrator of NASA. He is well known to members of 
the Science Committee, so I can be brief.
    He retired as a Major General from the United States Marine 
Corps after serving 34 years, many of them as a Marine aviato,r 
and flew over 100 missions in southeast Asia during the Vietnam 
War. During his 14 years as a NASA astronaut, Charlie flew four 
Shuttle missions, commanding two of them. His flights included 
deployment of the Hubble Space Telescope and the first joint 
U.S. Russian Shuttle mission. President Obama nominated Charlie 
as Administrator, and on July 17, 2009, he was sworn in.
    Charlie, it is good to have you here today. I thank you, 
and as our witness should know, spoken testimony is limited to 
five minutes. Afterwards, the Members of Congress will have 
five minutes each to ask questions.
    The Chair is able to provide some flexibility for you, 
understanding the hard day you have already had and you 
probably are expecting the situation is going to be similar. 
But I am proud to turn the floor over to you, Mr. Bolden.

              STATEMENT OF CHARLES F. BOLDEN JR.,

              ADMINISTRATOR, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Bolden. Thank you, Mr. Chairman, Ranking Member 
Johnson, and Members of the Committee. Today it is my privilege 
to discuss the President's fiscal year 2013 budget request for 
NASA. All of us at NASA are very grateful to the Congress and 
especially to this Committee for the strong level of support we 
continue to receive.
    Our requested budget, as has already been mentioned, is 
$17.7 billion, and it will enable NASA to continue to execute 
the bipartisan space exploration plan agreed to by the 
President and the Congress in 2010.
    Despite the constrained fiscal environment facing the 
Nation, this request supports an ambitious civil space program 
that puts us on a path to achieving a truly exciting set of 
goals; to send humans to an asteroid and ultimately to Mars and 
to broaden human activity in low-Earth orbit.
    International Space Station assembly is now complete, 
allowing us to focus on full utilization of the Station's 
research capabilities. NASA is operating a fleet of spacecraft 
to investigate Earth, the solar system, and the universe. All 
of this is critical to ensuring America's continued leadership 
in space exploration as well as our stewardship of Earth.
    The fiscal year 2013 request supports the implementation of 
key priorities of NASA. First, American astronauts continue to 
live and work in space onboard the International Space Station, 
conducting research to benefit life here on earth and prepare 
us for deep space human exploration. NASA is committed to 
making this national resource available to a broader scientific 
and commercial research communities.
    We are also committed to ensuring that American companies 
launching from American soil transport our astronauts and their 
cargo to the Space Station. This year we will see the first 
commercial cargo flights to the International Space Station, 
and with Congressional approval of the funding request we are 
on track to have American companies transporting our astronauts 
to the Station by 2017.
    Second, NASA is on track to develop a flexible deep-space 
launch system that will ultimately be the most capable in 
history. The Space Launch System or SLS heavy lift rocket and 
the multipurpose crew vehicle Orion will carry American 
astronauts below low-Earth orbit and into deep space within the 
next decade. We are pushing forward with contracting and design 
efforts to advance this crucial Next Generation Space 
Exploration System. Our fiscal year 2013 budget request 
supports our plans for an uncrewed SLS flight in 2017, and a 
crewed test mission by 2021.
    Third, we propose to continue progress toward the launch of 
the world's most advanced telescope in 2018. The James Webb 
Space Telescope will operate deep in space to orbit the sun and 
look out into space from its vantage point, nearly one million 
miles from Earth. Over the past year, NASA has made important 
adjustments to JWST management and put the project on a sound 
financial footing. NASA is confident that the fiscal year 2013 
budget request supports a 2018 launch for JWST.
    NASA's budget request supports a portfolio of innovative 
science missions resulting in a stream of data from orbits 
around the sun, Mercury, the moon, the asteroid Vesta, Mars, 
and Saturn. We now have missions on the way to Jupiter, Pluto, 
Mars. Sixteen Earth science missions currently in orbit study 
earth as an integrated system. The Hubble, Spitzer, Chandra, 
and Fermi space telescopes continue to make ground-breaking 
discoveries on an almost daily basis.
    Last year the Messenger Spacecraft entered orbit around 
Mercury. The ebb and flow satellites began mapping the gravity 
field of the Moon, and Juno, launched last August, is on its 
way to Jupiter.
    However, tough choices did have to be made, so we will not 
be moving forward with the planned 2016 and 2018 ExoMars 
Mission we had been planning with the European Space Agency. 
Instead, NASA is developing a new integrated strategy for Mars 
missions to ensure that the next steps for Mars exploration 
will support science and human exploration goals with advanced 
space technology developments.
    Our plan, including the framework for a mission to take 
advantage of the 2018 to 2020 launch opportunity, is targeted 
for completion hopefully in time to support the fiscal year 
2013 appropriations process. The fiscal year 2013 request 
supports this approach, and it will be informed by extensive 
coordination with the science community and our international 
partners and of course, the Congress.
    The fiscal year 2013 budget request continues to support 
robust Mars exploration, including two spacecraft currently 
orbiting Mars, the Opportunity rover on the surface, a multi-
year exploration of Mars by the Mars Science Laboratory 
Curiosity, and the planned 2013 MAVEN Mission to explore Mar's 
upper atmosphere.
    The fiscal year 2013 budget request supports continued 
advances in new aviation, science, and space technologies, 
absolutely essential to enable NASA to achieve its ambitious 
goals. At the same time NASA technology research seeds 
innovation, supports economic vitality, and helps to create new 
jobs and expanded opportunities for our skilled workforce.
    With the 2013 request, NASA will conduct aeronautics 
research to enable the realization of the Nation's Next 
Generation Air Transportation System or NextGen, and the safer, 
more fuel efficient, quieter, and environmentally responsible 
aircraft that will operate with NextGen.
    To inspire the next generation of scientists and explorers 
and to foster the development of the U.S. workforce, NASA's 
education programs will focus on demonstrable results and 
capitalize on the agency's ability to engage students and 
educators. To help today's young people envision their future 
in science, technology, engineering, and mathematics, that is 
our goal.
    NASA is grateful to the American people and to you, their 
representatives here on this Committee, for your continued 
support in these difficult and challenging times.
    Mr. Chairman, I thank you very much for this opportunity to 
make these remarks, and I look forward to your questions.
    [The prepared statement of Mr. Bolden follows:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. All right. I thank you, sir, for your 
testimony, and I remind Members that Committee rules limit 
questioning to five minutes, and the Chair will open--at this 
point open the round of questions. The Chair recognizes himself 
for five minutes, and I will try to stay within the five 
minutes. I will stay within the five minutes.
    Charlie, NASA continues, we think, to ignore a provision in 
the 2010 Authorization Act to develop the Space Launch System 
and Orion and Orion Multi-Purpose Crew Vehicle in time to 
provide a back-up capability to reach International Space 
Station if the Russians or the commercial companies are unable 
to perform.
    Using NASA's very best case scenario, commercial crew 
capabilities will not be available any earlier than 2017, and 
the Space Launch System and Orion Multi-Purpose Crew Vehicle 
would not be operational before 2021, after the Space Station's 
current planned life. NASA has reduced the Orion Multi-Purpose 
Crew Vehicle budget by $200 million in this fiscal year 2013 
request.
    In the interim, what plan does NASA have in place to access 
International Space Station should the Russian Soyuz or the 
commercial system be unavailable or not work for some reason?
    Mr. Bolden. Mr. Chairman, regretfully as I think everyone 
here knows, we have set ourselves up for a 2017 first 
availability of any capability beyond the Russians to take 
crews to the International Space Station. That is regrettable, 
but it is due to a lack of execution prior to now, and we are 
trying to correct that.
    I would say what is critical is that we not extend the gap 
between now and when we do have an American capability to get 
humans back into space any farther than it is right now, and 
that is why we are asking for the funds that we are, to support 
the Commercial Crew Development Program.
    Chairman Hall. In July or August NASA's Commercial Crew 
Program plans to give, I think, 300 million to 500 million to 
multiple companies using Space Act Agreements instead of more 
typical government contracts. According to NASA's Office of 
General Counsel, Space Act Agreements do not permit NASA to 
impose design or safety requirements on the contractors.
    I don't understand how we can be assured that NASA is 
developing safe systems, and safety is so important if it is 
prohibited from imposing any requirements or performance tests 
from the companies? And what recourse does the government have 
if these companies fail to perform or go out of business? And 
what, if anything, will NASA own after making these 
expenditures?
    Mr. Bolden. Congressman, the main recourse I have is that I 
pick the winner. My pledge to this Congress has always been 
that safety is foremost as long as I am the Administrator.
    While it is true that we don't have the opportunity to 
impose requirements and specifications under Space Act 
Agreements, in response to continued prodding from the 
Aerospace Safety Advisory Panel, a panel empowered by this 
Congress, we have now developed a set of design requirements 
for a human-rated vehicle, as well as human-rating standards 
for the same vehicles. And the industry companies, American 
companies have participated in the development of those 
standards and everyone has access to that now.
    So whereas a year ago a company would have said I am 
reluctant to bid because I don't know what requirements you are 
going to impose upon me, that argument--no longer holds water. 
Everyone has in their possession the design requirements for a 
human-rated vehicle that they will have to comply with when 
they enter into a contract. Everyone knows what the human-
rating standards are.
    So for minor things about human rating they know what they 
are. So I have people who are working with the companies right 
now that can look at how they are designing and developing 
their vehicle, and we will get a very good feel for whether or 
not they are serious about designing to those standards. They 
can't fool us.
    So I may not be able to impose the requirements yet, but 
they know what requirements they are going to have to meet once 
we enter into a contract with them.
    Chairman Hall. Well, Charlie, you have some control over 
the Office of the General Counsel, don't you, and they are 
subject to your suggestions, your demands, your requests.
    Mr. Bolden. Mr. Chairman, I do, but I don't have control 
over the law, and I don't have control over procurement 
regulations and the job of my general counsel, and it is one 
that I respect dearly because he is a Marine, and he is the 
world's greatest fighter pilot formerly, and so I respect his 
opinion, and he tells me that I need not stray from procurement 
law, and I am happy with that.
    And I assure you, again, in all seriousness, safety is my 
number one concern, and I will make sure that we don't fly any 
American astronauts on any spacecraft if it is not safe and it 
doesn't meet our requirements.
    Chairman Hall. But safe to me is you ought to permit NASA 
to impose these safety requirements and have it in writing in 
the contracts, and that would give you more substance to take 
them on for in our behalf.
    Mr. Bolden. Congressman----
    Chairman Hall. Why not do that?
    Mr. Bolden [continuing]. You just used a key word when you 
said impose on the contractor. They are partners right now. 
They are not contractors, and it is a subtle difference, but it 
is a difference. When they become contractors, when we put a 
request for a proposal out, somewhere between 14 and 20 months 
after we go through this Space Act Agreement process, they will 
bid on that proposal. They are then contractors, and once they 
sign on the dotted line, then they have hard requirements with 
which they have to comply.
    If we have any indication from our teams in their 
facilities between now and when our contract is met that they 
are not seriously approaching the standards that we need, they 
won't win the contract. I can say that upfront. So if someone 
thinks they are going to fool us or say that they will put 
political pressure on us later because I have no other choice, 
they are sadly mistaken. We know, and they know. We know that 
they know what the requirements are. We know that they know 
what the human rating----
    Chairman Hall. My time is over, and I thank you so much. I 
may write you about that. Thank you.
    Mr. Bolden. I will make them comply.
    Chairman Hall. Now recognize Ms. Johnson for her five 
minutes.
    Ms. Johnson. Thank you very much.
    Administrator Bolden, you know as well as I know that NASA 
is a unique source of inspiration for our young people, and it 
really is distressing to see the assessment of the value of 
NASA's education activities.
    Your total request for fiscal year 2013 is about $59 
million less than you were appropriated by the Congress in 
fiscal year 2012. I know that many people are sitting here 
listening to you, think yeah, yeah, yeah, but at the same time 
the fiscal year 2013 budget request for education is $36 
million less than appropriated for fiscal year 2012.
    And I understand that you had to make difficult choices, 
yet with all of the puts and takes, the optics of education 
taking the lion's share of the agency's reduction just does not 
sit well with me.
    So how is it that during your priority setting, as Dr. 
Holdren told us, education didn't stack up well against other 
agency programs or STEM education programs in other agencies? 
Could you elaborate on that?
    Mr. Bolden. Congresswoman, I won't comment on Dr. Holdren's 
statement if he said that, but I would say education had to 
stack up well. Education is very important. It is critical, and 
what we are doing that is a little bit different than we have 
ever done before is one of the first things that I did when I 
came in was we established and we had an education summit, and 
we brought in, and I think I mentioned this to you before, we 
brought in 25 of the most expert people we could find in 
foundations and educational institutions to help us determine 
which direction we should go in. They recommended we form a 
design team to help us reform NASA's Education Program, and 
that is what we are trying to do now.
    There is also the President's desire is to more adequately 
collaborate among agencies so that we don't have duplication of 
effort, and that is under Dr. Holdren's leadership in the Co-
STEM, the Committee on Science, Technology, Engineering, and 
Math, and what we are doing is giving that collaborative 
organization an opportunity to set some goals for all of us. 
One of the things I mentioned is we have to be able to measure. 
I have to be able to get metrics that say my programs are 
effective, and I think in the end we will be able to do that, 
and you will find that we are even more effective than we are 
right now.
    Ms. Johnson. Okay. Can you tell me where are you in terms 
of getting the measurements in place?
    Mr. Bolden. We have been working for 2-1/2 years now to 
establish those metrics, and I think they are, the metrics are 
now well established, and we can have Mr. Melvin and his folks 
come in and talk about what they are. We have tried to work 
them out with educational institutions and foundations, and so 
I think we have the metrics established.
    The measurement of those, as I think most people 
understand, is not something that happens in a week or a day or 
a month. We are talking about years in the making to be able to 
verify that your program was successful.
    But we do have measures from the Summer of Innovation 
Program that is now getting ready to go into its third summer 
that we have had a measurable affect on the interest of 
children, students, mainly in middle school. That was our 
focus. The interest of students in STEM education and following 
STEM courses, and we definitely have metrics that show that the 
effectiveness of our work with teachers is much better than it 
has ever been before. We now have teachers who proudly stand in 
front of a class and feel they know what they are talking about 
when they talk about math and science, and they are not afraid 
to teach it.
    Ms. Johnson. Yes, and I believe that, but I am trying to 
figure out what did you give up by giving up this $36 million?
    Mr. Bolden. Well, Congresswoman, I think what we gave up 
was the number of different places that we would be able to 
reach, not the programs themselves, and Leland and I had a 
discussion about this yesterday, and if you look at EPSCoR or 
you look at Space Grant, the content is not affected. What is 
affected is the number of schools or the number of communities 
that we will be able to reach for some period of time, and we 
are trying to find ways to overcome that.
    NASA is now much better than ever in utilizing social 
media. I don't have any statistics, I don't have any metrics to 
show this. My guess is we are probably reaching more students 
today although we are spending less money and getting into 
fewer areas than we ever reached before through Facebook, 
iTunes, apps. NASA has probably as many apps out there now that 
are available to students as anybody, and we didn't have that 
before.
    Ms. Johnson. Thank you very much.
    Chairman Hall. The gentlelady yields back.
    I recognize Mr. Sensenbrenner for five minutes.
    Mr. Sensenbrenner. General, thank you for coming.
    Mr. Bolden. Thank you.
    Mr. Sensenbrenner. Trying to squeeze programs into whatever 
the President says you have got available I know is a very 
difficult job, and you have got to pick some winners and 
losers. I know that programs talk about hardware and delivery 
systems and stuff like that. I am kind of concerned about 
people, and we are all in favor of having more jobs available 
and haven't done a very good job in that during the current 
recession.
    But delays in developing the new Space Launch System 
resulted in the loss of about 10,000 jobs, and do you think the 
private sector will be able to absorb these 10,000 jobs as a 
result of increased reliance on the private sector, or are we 
going to be having some highly-trained engineers who know a lot 
about developing spacecraft to just go off into another area of 
endeavor?
    Mr. Bolden. Congressman, regretfully the answer to that 
question is regional. If you would ask me about Texas, we have 
had incredible success in placing our employees who have lost 
their job because the petrochemical industry has sucked them 
up. If you are talking about Florida, that is probably the area 
that is the hardest hit, and it is because we have been 
unsuccessful in working with the State of Florida to get them 
to bring high-tech jobs, alternative high-tech jobs into the 
area.
    But the lieutenant governor and I are working diligently to 
try to find companies that want to come into Florida and 
utilize the talent that we have there.
    So it is a slog. We are going to get there.
    Mr. Sensenbrenner. What is NASA doing to ensure that we 
don't lose these people forever?
    Mr. Bolden. Congressman, what we are trying to do 
particularly with the NASA workforce, unfortunately, I have to 
differentiate between the civil service workforce and the 
contractor workforce because I actually have very little 
control over the contractor workforce and what happens to them 
other than going out and using more of our money to hire 
contractors instead of focusing on programs and keep the civil 
service workforce.
    In the case of the civil service workforce, we are trying 
to do everything we can to retrain people where necessary, to 
make lateral moves so that we put them in the proper skill, the 
proper position to utilize their skills, and in some cases in 
my visits to the centers I am asking people to come in and say, 
hey, I am not happy doing what I am doing. I think I would be 
better at doing this and asking for a move into another field 
if they think there is something else they can do.
    Mr. Sensenbrenner. Now, we spend about $3 billion a year on 
the Space Station. We have two astronauts up in the Space 
Station now, which I think is probably the most expensive jobs 
program in the universe.
    Ms. Johnson has complained about some changes. How about 
reducing the Space Station budget and perhaps reducing the 
billion and a half per job that we create up there?
    Mr. Bolden. Congressman, I would disagree with you in your 
assessment that it is an expensive jobs program. The Space 
Station Program is not a jobs program at all. The Space Station 
Program is the most incredible technological achievement of 
this Nation and the world, and I would refer anybody to, not 
just to NASA's website but to the website of any of our other 
four international partners.
    This document which shows----
    Mr. Sensenbrenner. What portion do they, the partners pay 
for----
    Mr. Bolden. Every partner pays a proportional amount. 
Russia and the United States pay the lion share because only we 
know how to build spacecraft the way we do, but every partner 
is required to put in a certain amount, and we don't--there is 
no exchange of funds. Let me make sure everybody understands 
that.
    We work with our partners on a barter arrangement. So we 
may get a spacecraft from them for an opportunity for one of 
their astronauts to fly, or we may get some other component 
from them for some service, but there is no exchange of funds.
    Mr. Sensenbrenner. Okay. I have one more series of 
questions relative to the James Webb Space Telescope.
    Mr. Bolden. Yes, sir.
    Mr. Sensenbrenner. It currently has a cost overrun of 900 
percent, and that is shameful, and that is shocking. What would 
happen if we said we weren't going to give you anymore money on 
this? You are going to have to do with what is on the baseline, 
and my second question and this is not facetious, is that 
telescope going to be strong enough to see the bottom of the 
financial hole that we have dug for it?
    Mr. Bolden. Congressman, I would say first of all, James 
Webb has the potential to expand our understanding of our 
universe many times more than the Hubble Space Telescope has 
done, and we never dreamed of what Hubble would do.
    I don't think you can put a financial price tag or a value 
on the incredible achievements of the Hubble Space Telescope. 
If I were to go through the benefits in this document and try 
to put a dollar value on it and divide it by the number of 
people who have worked on the International Space Station 
Program in the 12 or so years we have been flying, I think you 
would be marveled at the small cost per person to do this. So I 
don't think we can attach financial value to this. It is 
unfortunate, because we are talking about life-saving drugs, we 
are talking about medical----
    Mr. Sensenbrenner. I know about all of that, but one thing 
I have experienced in the 30 years that I have been on this 
Committee is that NASA always seems to have cost overruns on 
everything, and with the James Webb Telescope it is 900 
percent.
    Mr. Bolden. Congressman, if I were to show you instruments 
or satellites such as Juno and GRAIL, who are--Juno is on its 
ways to----
    Mr. Sensenbrenner. You are dancing around the question 
about the Webb Telescope.
    Mr. Bolden. Since I became the NASA Administrator, and I 
did not do this, by the way. This started in 2009, before I 
became the Administrator, NASA adopted a process called Joint 
Cost Level. We are looking at cost in schedule, and we are 
making sure that we can guarantee an 80 percent probability of 
success on missions. Juno, GRAIL, MAVEN, other projects that 
have been conducted in my time as the NASA Administrator have 
no cost overruns. In fact, some of them have under-run their 
cost estimate. All of them have been delivered on time. The 
James Webb Space Telescope in the last year and a half since we 
have brought out this re-plan to this Congress and got it 
approved, James Webb is on target. Every milestone it was 
supposed to reach except one has been reached on time. That one 
was deferred because we needed to do that for another reason 
not related to our ability to do it. Cost is on cost.
    So I think we have adopted a new way of pricing that makes 
us much more attendant to cost and schedule, and I don't think 
you are going to see the overruns that we have historically 
had.
    Mr. Sensenbrenner. I thank the Chair.
    Chairman Hall. The gentleman yields back.
    I now recognize the gentleman from North Carolina, Mr. 
Miller, for five minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Administrator Bolden, there are obvious ethical concerns 
with revolving door government. Some of this has to do with the 
appearance of impropriety and sometimes the conduct goes beyond 
the appearance of impropriety.
    The ethical concerns behind the Procurement Integrity Act 
seemed pretty evident. That prohibits former federal officials 
who oversaw certain procurements from going to work for the 
contractor that they gave those contracts to, from getting paid 
by the very folks that they had given business to.
    And those apply to all procurements above a certain dollar 
value but apparently not to all kinds of contracts, including 
apparently the Space Act Agreements, and NASA is using Space 
Act Agreements extensively in the acquisition of commercial 
crew capabilities. There are hundreds of million of dollars 
involved, and it seems to be important to the integrity of the 
agency that Congress and the American people have the ethical 
expectations that the Procurement Integrity Act is designed to 
protect apply to the acquisition of commercial capabilities.
    Is it correct that the post-employment restrictions of the 
Procurement Integrity Act do not apply to Space Act Agreements 
for those acquisitions, for those procurements, and if they 
don't, do you think Congress should make them apply?
    Mr. Bolden. Congressman, I cannot answer that question, and 
I will get you an answer for the record.
    Mr. Miller. Okay. Well, you may have difficulty with the 
next question, too, because it is along the same general lines.
    Your policy directive 1050.1(l), which deals with the use 
of Space Act Agreement, says that agreements may be used only 
when the agency's objective cannot be accomplished through the 
use of a procurement contract, grant, or cooperative agreement. 
NASA has decided, however, to use Space Act Agreements for the 
Commercial Crew Acquisition. That appears to be a reversal of 
the earlier decision to use contracts that did have the 
restrictions.
    Can you explain that decision?
    Mr. Bolden. Yes, sir.
    Mr. Miller. Okay, and is your rationale consistent with 
your policy directive limiting the use of those agreements?
    Mr. Bolden. And Congressman, I won't ask you to read it for 
me again because I don't remember all that you said, but the 
simple explanation for the reason that I went from a--my plan, 
the acquisition strategy to enter into a contract to put out a 
request for proposal for Commercial Crew was the fact that the 
2012 appropriation from the Congress was half of what we had 
explained to the Congress we would need to conduct a viable 
Commercial Crew Program.
    The GAO and other oversight organizations came to the 
Congress and came to me and said we think you need to relook at 
your acquisition strategy, because we don't think you can do 
what you said you could do, and I agreed with them reluctantly.
    And so in order to maintain competition, in order to give 
more companies an opportunity to participate in the production 
of a system, not an individual vehicle like we did through the 
Commercial Crew, the earlier program that we had, my decision 
was that we would prolong the period of time utilizing Space 
Act Agreements where we would continue to partner with industry 
and not go into contracts.
    If I had had to enter into a contract, if I had had to 
submit a request for proposal in February as I had planned, at 
$406 million I would have had to select one contractor, and the 
cost, the subsequent cost on that contract would, I think, have 
been--I would not have been able to afford it.
    And so that was the basis for my decision to extend the 
period of time that we were utilizing Space Act Agreements.
    Mr. Miller. Well----
    Mr. Bolden. It may have been legal to do so, but it would 
not have made sense. It would not have made financial sense.
    Mr. Miller. The traditional Procurement Law requirements 
that the Space Act Agreements get around don't apply. I just 
talked about one of them, the Revolving Door concerns. What are 
the concerns, what are the provisions or safeguards that drive 
up cost and----
    Mr. Bolden. Congressman, I just have to ask. I am confused 
because the implication is that we have selected a company that 
is violating the Revolving Door rule, and I don't know of any. 
So, if you are asking me to justify why we selected a company 
that has someone who was involved earlier in the decision to do 
Space Act Agreements, I would be glad to answer that question, 
but I don't know whether you are dealing in a hypothetical or 
whether you are alluding--what you are implying is that we have 
violated the law.
    Mr. Miller. You seem to have gone to view some of the 
restrictions that appear to have good sense behind them, that 
those are a problem, and they might drive up costs. I would 
like to know why they are a problem. Should they perhaps not 
apply to any contracts, or if there is, in fact, good sense 
behind them, why aren't they applying to these contracts?
    Mr. Bolden. Sir, the problem with going with a contract at 
$406 million is that I would only have one company to be 
awarded a contract if they would be willing to accept a 
contract at that price. I don't think I could have gotten, I 
may have found one company.
    The one thing I do not want to find, the situation I do not 
want to find myself in ever again or my successor is where 
there is only one alternative to taking humans to space without 
going to a foreign entity. I would like to have and my purpose 
in stretching this out is to hopefully have at least two 
American companies, not two alternatives, Russia and an 
American company, but two American companies who can provide 
transportation to low Earth orbit.
    Mr. Miller. It is--I understand my time has expired. You 
said you would get back to me on whether the Procurement 
Integrity Act Revolving Door Provision should apply. Please do.
    Mr. Bolden. Yes, sir. I will.
    Mr. Miller. All right. Thank you.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes the gentleman from Mississippi, Mr. 
Palazzo, for five minutes.
    Mr. Palazzo. Thank you, Mr. Chairman, and thank you, Mr. 
Administrator, for appearing here today.
    My questions today are offered in the context of my 
continued frustration that NASA seems to be an agency without a 
clear mission. As we wrap up the Shuttle Program and send the 
orbiters to museums, we so, too, lose expertise and a skilled 
workforce to other opportunities. It just adds that some of 
those opportunities are outside of the aerospace industry.
    Meanwhile, our access to the ISS is limited to the 
Russians, a reliable partner, but not without concerns after 
this last fall's launch mishaps. And I wondered what our 
European partners feel about our future human programs when 
they see our schizophrenic nature in mission planning.
    After 50 years of leadership in human spaceflight this 
heralded agency faces the question of what is next. It is my 
commitment as Chairman of the Space and Aeronautics 
Subcommittee that we come together to advance common, 
worthwhile goals and protect America's legacy of space 
leadership. Having said that I would like to ask you a few 
specific questions.
    Mr. Administrator, I am extremely pleased with the critical 
role the Stennis Space Center has in support of SLS, COTS, and 
CCDev, but I want to make sure those investments are comparable 
to the investment and resources and infrastructure at the 
Kennedy Space Center.
    Stennis's role is prior to flight, and there seems to be a 
disparity in investment. Can you speak to that?
    Mr. Bolden. Congressman, Stennis is playing a critical role 
right now, and they are doing something that the Kennedy Space 
Center is not doing, and that is test firing on a routine 
basis. We have quite a bit of activity going on at Stennis, and 
that required us to make investments in upgrading the test 
stands, and I think we are doing that.
    We have been able to attract not only interest from the 
traditional engine manufacturers but now some of the newcomers. 
So I think our investment in Stennis is doing exactly what we 
want to do and bringing benefit to the area in terms of testing 
that we are doing.
    Mr. Palazzo. Okay. So the concern is that the investment in 
Kennedy is not going to get so far ahead because there is some 
additional investment that needs to go into Stennis for the 
21st century launch facility.
    Mr. Bolden. Congressman, you heard me say once before while 
we were both together for the anniversary at Stennis, and I 
didn't make this up. I have heard it. All roads to space lead 
through Stennis, and that is a true statement, because we don't 
fly an engine that hasn't been tested at the Stennis Space 
Center.
    So my development of test stands or my upgrade of test 
stands has to pace the development of the vehicles that we are 
planning to fly at Kennedy.
    So 21st century launch facility, the exploration ground 
systems, we are trying to piece all of that such that we end up 
with a system, all of its integral parts coming together at the 
same time. I think you are very aware J-2X is something that 
while we won't need it for a number of years, we are trying to 
get some testing behind us on the J-2X. If I weren't worried 
about that, I would say, okay. Let us hold off for a few years 
before we test J-2X. I don't think that would be prudent 
because, you know, we probably would not be able to find any 
problems that we may have with it, and it would not be ready 
when we need it.
    So I think the answer to your question is we are trying to 
pace the improvements, the construction, and the development at 
all of our centers such that everything keeps pace and comes 
together in the case of SLS MPCV in 2017, when we fly our first 
uncrewed launch.
    Mr. Palazzo. Parallel path.
    Mr. Bolden. Yes, sir.
    Mr. Palazzo. Okay. Also I have seen in the news media 
reports that NASA is making investments in other agency rocket 
test stands at the expense of the agency's primary rocket test 
facility at Stennis. Are you approving those investments at 
other centers?
    Mr. Bolden. Congressman, I am not aware of an investment 
that we are making in another agency test stand. I will take 
that for the record.
    Mr. Palazzo. Plum Brook, $150 million investment.
    Mr. Bolden. Oh, that is, but that is our test facility, and 
that investment is one of long standing. This is not a new 
budget item or a new investment. It has been ongoing, and we 
are just trying to make sure that Plum Brook is ready when it 
is time to take, whether it is Orion or any other vehicle 
there, that it will be ready to test.
    Mr. Palazzo. So you don't think that is a duplication of 
test facilities?
    Mr. Bolden. No. They are totally different. Plum Brook and 
Stennis, Plum Brook is a vacuum, it is a chamber that we can 
simulate conditions in space for a vehicle itself, whereas 
Stennis, as you know, is a facility where we simulate the 
operating conditions of an engine.
    So totally different.
    Mr. Palazzo. Mr. Administrator, I appreciate it. My time 
has expired. I yield back.
    Chairman Hall. The Chair recognizes the gentlelady from 
Maryland, Ms. Edwards, for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman and Ranking Member 
Johnson and General Bolden, I appreciate your being here as 
well for your leadership.
    I know that today we are focused on the long-term goals and 
flight missions beyond earth and NASA's activities to develop 
the capabilities of the program, and I do want to highlight and 
appreciate the breath of life that has been breathed into the 
work at Goddard Spaceflight Center on Earth Science missions 
and the continued work at--with the James Webb Space Telescope. 
And unlike some of my colleagues, I really do see a value in 
James Webb as does my friend over in the Senate who breathed 
life into the James Webb Space Telescope in the appropriations 
process when some on the other side frankly wanted to zero it 
out entirely.
    But I do have some concerns about Goddard's budget and the 
reduction of $180 million this year, and it is not specifically 
about Goddard, but it goes to the question of the priorities 
for the agency and your overall vision and strategies.
    I am concerned when I look at the budget and it proposes 
increased funding for ground support systems without a 
completed design for a commercial vehicle. It bucks the 
recommendations of a decadal survey by ending the ESA, the 
European Space Agency partnership for planned Mars missions in 
2016 and 2018, and it doesn't follow through on the 
authorization that was passed in 2010.
    This creates an atmosphere, I think, of great uncertainty 
by, certainly by members of this committee about our ability to 
maintain U.S. leadership in a number of the areas that we have 
pioneered. And so to that point, I look at every program in 
your budget and it seems to take a hit except for the 
commercial crew, and in that one request it is $829 million, 
more than double what has been appropriated for fiscal year 
2012, two-thirds more than what is authorized for 2013. And 
according to your staff if NASA is not appropriated at the 
requested level and instead receives something close to last 
year, it will slip the operational date for commercial services 
to 2018.
    I wonder if you can tell me how we can expect support on 
this Committee for a 104 percent increase when you have yet to 
provide us, despite being asked numerous times, frankly, 
General, a credible cost and schedule estimate that justifies 
an annual funding stream lending to the operational date that 
you indicated.
    And I wonder if you also could tell us why you don't have 
plans any longer to have an independent cost assessment and 
schedule estimate done despite assurances that you made last 
fall that one would be done, and if that is true, I wonder why 
you are abandoning it.
    And then lastly, going to the acquisition strategy, I 
wonder--since you permit NASA's safety requirements that you 
have considered to be risky by your own staff--how you can 
project with any confidence that our astronauts will be able to 
fly safely on a commercial spacecraft to the International 
Space Station by 2017.
    I know that is a lot to take in, but it does raise some 
concerns with me anyway about projecting goals and costs for 
something that we haven't even proven yet, and if that is true, 
why do we need to spend that money for 2013? It seems to me we 
need to get something that is more of a sure shot from you 
before we authorize spending levels when we are cutting in 
other critical parts of the agency and the agency's mission.
    Thank you.
    Mr. Bolden. Congresswoman, when we made the initial 
assessment of what would be required for a Commercial Crew 
Program, we did a number of things. We went to industry and 
asked them themselves, which I understand is sending the fox to 
the henhouse, some say, but we did get independent assessments 
of whether or not that was reasonable, and the estimate that we 
originally brought in for $850 million was something that was 
supported by people that said if you want to have a commercial 
crew capability by 2016, then you need $850 million, and I 
think----
    Ms. Edwards. Did you say you got that independently from 
the industry? I am so confused.
    Mr. Bolden. Oh, no, no, no, no, no. No, ma'am. I said we 
got estimates from industry. I think, you know, the Augustine 
Committee got the original estimates from industry, the 
Aerospace Corporation took a look, and I would get back to you 
on what other entities we had look, but $850 million was the 
estimate that we had for bringing in a viable commercial crew 
capability by 2016. When we testified last year, not just me 
but Bill Gerstenmaier and others, we said if we are allocated 
less than $850 million, it will cause the program to move to 
the right. We didn't know how much, but we estimated that if we 
went down to--I think the number at the time was if we go down 
to $500 million, which we called the floor, then that is going 
to push the program out to no earlier than 2017.
    So that is where we are today. We are at 2017. The reason 
we are asking for the $829 million is because we do not want to 
see it go to the right anymore. The gap between now and 2017 is 
excessive. A gap that increases would be unacceptable, and that 
is the reason we came back and asked for a restoration of funds 
for the Commercial Crew Program.
    Ms. Edwards. Well, thank you, Mr. Chairman, and I know my 
time has expired.
    I have to tell you, General Bolden, I don't know how you 
can really legitimately make those estimates when it doesn't 
seem to me that there is a real plan yet, and so I hope we are 
not going to be coming back to this Committee another year from 
now and saying, you know what? It is not $829 million because 
we had some other things that we have to consider, and we have 
something more real that is a deliverable from the industry. I 
think that is very problematic.
    Thank you, and I yield back.
    Mr. Bolden. Congresswoman, I will take the action to get 
with you and your staff to make sure that I understand what you 
mean when you are asking for a plan and the cost for that plan, 
because I think we have that, and I think we know where we are 
going, and I think we know how much it is going to cost.
    So I will take the action, I will take it to get back with 
you on that.
    Chairman Hall. The gentlelady yields back.
    Recognize Ms. Adams, lady from Florida, for five minutes.
    Mrs. Adams. Thank you, Mr. Chair.
    I see that NASA has requested $41.1 million in the 21 CLC 
Line and Space Operations. There seems to be some confusion 
about how much money is being directed to the ground ops 
overall.
    Can you explain how much money is being spent on--out of 
the space exploration, space operations, and CECR lines for 
ground ops and modernization projects?
    Mr. Bolden. There is about----
    Mrs. Adams. If you have specific dollar amounts that would 
be great.
    Mr. Bolden. I will get you the exact number, but I think it 
is about $504 million for ground operations, but in order to 
try to be clear to the Congress and make it easier, we call 
ground operations 21st Century Launch Complex, and that is 
mostly for commercial crew and other assets, and then we have 
what we call Exploration Ground Systems that is for SLS.
    So the bulk of that money goes to Exploration Ground 
Systems, $47 million of it is for 21st Century, which is for 
modernization and upkeep that makes--modernization, not upkeep, 
for modernization and transformation that makes Kennedy a 
flexible facility for use of commercial and SLS.
    So that piece is confusing because it does serve SLS and 
other users. Exploration Ground Systems is strictly SLS, and 
that is where the bulk of it is.
    Mrs. Adams. So I look forward to getting those exact 
numbers from you.
    My understanding is also that Orbital Sciences is ready to 
launch, but their pad in Virginia is not ready for them. Is 
this true, or are there other problems that you would like to 
share with us?
    Mr. Bolden. All I can tell you, Congresswoman, is what the 
contractor tells us. We do know that the lack of a launch pad 
is one problem right now for Orbital. I am not able to say that 
they could launch today if they had a launch pad. So I would--
--
    Mrs. Adams. Well, is Kennedy Space Center in danger of 
similar issues, or does NASA have the resources needed to be 
prepared to launch when the time comes?
    Mr. Bolden. The reason that we want to spend money now on 
ground systems as I have explained to some of your counterparts 
who are more concerned about the vehicle, is as I told 
Congressman Palazzo, we are trying to work everything on a 
parallel pass so that we all get to the same date----
    Mrs. Adams. So the question is----
    Mr. Bolden [continuing]. At the same time. No, ma'am. We 
are not going to run into the problem----
    Mrs. Adams. Okay.
    Mr. Bolden [continuing]. At Kennedy that we are facing at 
Wallops. But that----
    Mrs. Adams. Thank you.
    Mr. Bolden [continuing]. And for different reasons, though, 
and I can go into that with you later but totally different 
operation.
    Mrs. Adams. I have a couple more questions, and I don't 
want to get filibustered because I want some answers.
    Mr. Bolden. Yes, ma'am.
    Mrs. Adams. The price tab for James Webb is now up to 8.8 
billion with a B. Essentially NASA is cannibalizing everything 
in science except climate change research and earth science, 
which was untouched to pay for the James Webb. The James Webb 
Telescope is supposedly an international partnership.
    Can you tell me how much funding of our international 
partners has been contributed to this project given our $8.8 
billion investment, not including the launcher, which NASA gave 
away to a foreign country?
    Mr. Bolden. Congresswoman, first of all, I would disagree 
that we have cannibalized the Science Program for James Webb. 
That is not accurate nor true, and the other thing is that the 
international partners, as I mentioned with the International 
Space Station, contributes in-kind----
    Mrs. Adams. How much?
    Mr. Bolden. They don't give dollars. They give instruments, 
the launch vehicle is an Orion Spacecraft, which if you 
compared that to the price of an Atlas, it is $450 to $550 
million. So it is a contribution in kind.
    Mrs. Adams. It is in kind, but you will agree that the 
climate change research part has not been changed?
    Mr. Bolden. Congresswoman, I would say that we have not 
funded climate change, Earth science to the level that it 
should be funded for what we need to do to respond to the 
Nation's needs.
    Mrs. Adams. General, I know you have not yet responded to 
the March 5 letter from our colleague, Appropriations 
Subcommittee Committee Chairman Frank Wolf, about discussions 
among the International Space Station partners to include China 
in the program.
    However, I would like you to respond to the concerns raised 
by Lieutenant General Ron Burgess, Director of Defense 
Intelligence Agency, about how China's space warfare activity 
is carried out under the guise of China's civil space program.
    Have you been briefed by the DIA or CIA on China's 
espionage activities to gain American space technology, 
especially through cyber hacking? Are you concerned about 
China's collection efforts against NASA engineers, scientists, 
and your contractors?
    Mr. Bolden. Congresswoman, first of all, I will just 
correct for the record, Congressman Wolf and I had a long 
conversation yesterday. I told him I did not want to send him a 
letter when I could talk to him and explain what happened at 
the heads of agency meeting. So that meeting has been had, and 
he considered that adequate response to his letter.
    I am continually informed by members of the intelligence 
community, I get briefs all the time, I go and read what is 
called a Read Book for me that contains classified information 
about all of our partners and non-partners and their 
intelligence activities. So I am aware of what is going on.
    Mrs. Adams. Are you concerned?
    Mr. Bolden. Anyone who is not concerned about what is going 
on with our partners and our non-partners would be foolish. 
Everyone wants our technology, so we need to be----
    Mrs. Adams. Was that a yes?
    Mr. Bolden. I am concerned.
    Chairman Hall. The gentlelady yields back her time.
    Recognize Mrs. Fudge, the lady from Ohio, for five minutes.
    Ms. Fudge. Thank you, Mr. Chairman and Ranking Member 
Johnson.
    Good afternoon, Administrator Bolden.
    Mr. Bolden. Good afternoon, ma'am.
    Ms. Fudge. I was pleased to see that Glenn Research Center 
is well positioned in your request for conducting cutting-edge 
space technology work in fiscal year 2013. With the planned 
engagement of almost 140 FTEs and with the center distribution 
of over $120 million requested in fiscal year 2013, I am 
certainly confident that Glenn will answer the call.
    In particular, I note that Glenn will be leading one of the 
big nine space technology projects, specifically cryogenic 
propellant storage and transfer. Stepping back a bit, I would 
like to give you the opportunity to explain to Members why it 
is so important to make investments in space technology and 
what NASA will benefit by doing so.
    Mr. Bolden. Congresswoman, this is a joke. I could--no, no, 
no. I am going to make a joke referring to Congressman 
Rohrabacher. Your question is incredibly timely. I was going to 
ask Congressman Rohrabacher if he would like to provide the 
response because we spent about an hour and a half together 
yesterday, my explaining to him our efforts in cryogenic 
propellant storage, the importance of doing that as a 
technology pursuit, the fact that it is the number one priority 
of my Technology Program, my Space Technology Program.
    While it is not vital for us presently, we have to be 
developing that capability to support the heavy-lift launch 
vehicle when it comes available. We will need that capability 
if commercial companies want to, if they want to pursue 
ventures beyond low Earth orbit someday, as they may, we need 
to have the capability to put propellant depots in space, and 
we can't do that today. We don't have the capability because we 
lack--we need big thermos bottles.
    Let me put it simply. We don't know how to do that. So that 
is what the program you are talking about and that is the work 
that Glenn will do. Simply.
    Ms. Fudge. Thank you. Now, I am concerned about the five 
percent cut to funding institutional needs in support of NASA 
centers and headquarters. It seems that this account had taken 
more than its fair share of cuts over the past two years.
    What impact will this latest proposed cut have on the 
centers' abilities to address increasing needs and requirements 
and on the civil servant staff's ability to meet challenging 
expectations?
    Mr. Bolden. Congresswoman, these are very difficult fiscal 
times. I know you know that as well as anyone. We are really 
trying to tighten our belt. You will hear people complain about 
cuts in travel. Every time you take money away from a center, 
it impacts, but we are trying to make sure that they are smart 
reductions.
    So we are looking at reductions in paper usage, in pencils, 
in travel, and we are trying to make sure that we don't get any 
muscle, you know, as we do the reductions that are required, 
trying to live within our means with the budget that we have.
    Ms. Fudge. Okay. Lastly, certainly I was disheartened to 
see that the President's request for education--and this may 
have happened earlier and I was late, forgive me----
    Mr. Bolden. That is fine.
    Ms. Fudge [continuing]. If I am being repetitive. But I was 
disheartened to see that the President's request for education 
at NASA reflected a $36 million decrease. Last week my office 
met with the Ohio Space Grant Consortium, and we heard about 
how NASA's education dollars are impacting the lives of 
students and encouraging them to pursue careers in STEM fields.
    It seems to me that the Space Grant and other education 
programs at NASA are unique in their ability to inspire our 
Nation's youth. Can you explain the justification behind the 
reductions to these programs?
    Mr. Bolden. Yes, ma'am. We had to establish priorities, and 
we had to decide where we were going to take reductions, and we 
did it essentially across the board. But what we have done with 
education, as with a number of other programs, is we have 
looked at new ways of doing what we did.
    As I mentioned earlier, I think if you would ask the Space 
Grants if they have increased their reliance upon social media, 
that they get help from us in doing, they may not be able to 
reach the numbers of communities or the numbers of schools that 
they did before, but my guess is they are reaching more 
students because they are doing it by a different means now.
    So we have taken an education design team to try to tailor 
our education efforts. We are putting control, not control, we 
are putting oversight of our expenditures on education from the 
centers and the programs that have their own independent 
education and outreach funds. We are trying to synergize it 
such that we spend that money more wisely, and we don't have 
different centers doing different things that when you look at 
them in total everybody is doing the same thing but spending it 
from a different pot of money.
    So we are trying to be smarter in the way that we reach 
students, and I think, as I mentioned earlier, when we look at 
a program such as the Summer of Innovation, which is going into 
its third and final year of the pilot, we will find that the 
metrics that we establish verify that we have, in fact, had a 
greater impact on reaching middle school students, although we 
didn't do it the way we have traditionally done it.
    The Space Grants were not involved in the types of programs 
that we are doing in the Summer of Innovation, and now in many 
states they are the implementing organization. It was hard for 
them. They don't like doing that because they love being at the 
college and graduate level, but we told them you got to go down 
and work with middle school kids, and they are doing that, and 
we are reaching students and teachers.
    Ms. Fudge. Thank you, Mr. Chairman. I yield back.
    Chairman Hall. I thank you.
    The Chair recognizes the gentleman from Texas, Mr. Smith, 
for five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    General Bolden, I think you responded to most of my 
questions already either when I was out of the room or in the 
room, one way or the other. I just want to run over a couple 
real quickly, and then I have a couple of new ones as well.
    I understand that the James Webb Space Telescope is on 
schedule both in regard to resources and timing, and that is 
fully supported by the Administration. Is that----
    Mr. Bolden. That is correct, sir.
    Mr. Smith. Okay. There is no possibility it will be before 
2018, would it?
    Mr. Bolden. Congressman----
    Mr. Smith. It is one of the most important things we could 
possibly do, but maybe there is no way to speed it up. I don't 
know.
    Mr. Bolden. That is one that an infusion of funds now would 
help, but if we wait years and say we will increase the 
funding, it won't make a difference.
    Mr. Smith. I understand. Also, I understand that you feel 
ASAP's concerns have been addressed as well?
    Mr. Bolden. I do.
    Mr. Smith. Okay. On the Space Launch System, does the 
Administration fully support it? There has been a slow down in 
the past, and that led some of us to wonder about the 
seriousness of purpose.
    Mr. Bolden. Congressman Smith, the Administration fully 
supports the Space Launch System and Orion and as a 
demonstration of that support we have, as I mentioned earlier, 
we are test firing the J-2X, which is an upper-stage engine. We 
have moved all of the Shuttle main engines over to Stennis for 
further testing and modification. We are actually doing 
hardware things now that we were not doing this time last year.
    Mr. Smith. Okay, and response to Congresswoman Adams' 
questions a few minutes ago, I assume that China is not being 
considered as a partner with the International Space Station?
    Mr. Bolden. China is not, not by the United States, and as 
I explained when asked that at the heads of agency meeting, I 
am complying with the law and that I am not allowed to do any 
bilateral activities with China.
    Mr. Smith. Okay.
    Mr. Bolden. And we are not.
    Mr. Smith. I mean, their space program is a little, is a 
thinly-veiled cover for, I think, other purposes, and I think 
we are aware of that, too.
    Another question is this. NASA, as NASA begins to plan for 
the first in a series of deep space missions, what studies are 
underway to better determine the impact on the health of the 
astronauts themselves? International Space Station astronauts 
have had trouble with their vision. There have been other 
problems as well. What kind of studies are being conducted that 
will anticipate or try to address those kinds of health----
    Mr. Bolden. Congressman, we have an ongoing human research 
program that looks at astronaut health, and it has helped us to 
improve the condition of astronauts as they spend six months on 
the International Space Station. We have continually tried to 
get funding, unsuccessfully, for a long-term health program for 
astronauts after they leave the program because what we are 
finding now is that there are long-term affects of spaceflight 
that we will only find out about if we have access to the 
medical records. When someone leaves the astronaut office, 
participation in the longitudinal study program as I do is 
voluntary, and most people don't do it because they have got to 
go pay for, you know, for the doctor's visit or medical 
treatment.
    If we had a program whereby I had lifetime access to an 
astronaut, their health, and their medical records, it would 
benefit people, future spaceflight.
    Mr. Smith. Is anything being done to specifically address 
the----
    Mr. Bolden. Vision problem?
    Mr. Smith. Yeah. Vision problem with the astronauts.
    Mr. Bolden. We have, what you are talking about increased 
inter-cranial pressure that causes flattening of parts of the 
eye. We don't fully understand it.
    Mr. Smith. Nothing can be done to prevent it that you are 
aware of?
    Mr. Bolden. We don't know. It is a question yet to be 
answered. We hope so.
    Mr. Smith. Okay. Last question. The Atlas V has proved 
itself 100 percent success rate and so forth. The real issue 
for the commercial crew is the lack of a capsule or a crew 
vehicle to put on top of the rocket. Why wouldn't we just save 
ourselves a lot of time, perhaps a lot of money, decide on the 
Atlas V, and then we can go forward and focus on developing the 
crew vehicles?
    Mr. Bolden. Congressman, what we are doing is we are buying 
a service that requires a complete integrated system, and I 
think what you have seen is that a number of the potential 
bidders have chosen the Atlas V, and they are working, and we 
have funded to a certain extent as a partner ULA, the company 
that provides the Atlas V, to find ways to human rate that 
launch vehicle. But the launch vehicle itself is just a piece 
of the puzzle. We need a launch vehicle and crew capsule, and 
then when you talk about deep space exploration, you need a 
service module and other things.
    So they all come together.
    Mr. Smith. That is my point. We ought to be focusing on 
those latter developments rather than spending so much time 
trying to figure out what is the best vehicle to use. Why not 
use the Atlas V, just make that decision right now?
    Mr. Bolden. Because every person that produced a module 
doesn't want to use an Atlas V.
    Mr. Smith. Okay. Well, that is up to you all to----
    Mr. Bolden. No. That is actually up to the contractor, to 
the private industry. What we asked them to do was bring us the 
best system, In response to a question earlier, we are trying 
to give industry a reasonable amount of time, not forever----
    Mr. Smith. Okay.
    Mr. Bolden [continuing]. But a reasonable amount of time to 
put their plans together and do testing that we can observe and 
make sure that they are going to meet the standards, the safety 
requirements----
    Mr. Smith. Right.
    Mr. Bolden [continuing]. And the human rating standards 
that we have set forth, and they know what they are. It is--we 
are past where they didn't know what they were.
    Mr. Smith. Okay.
    Mr. Bolden. They know.
    Mr. Smith. Thank you, General Bolden. Thank you, Mr. 
Chairman.
    Chairman Hall. The gentleman yields back.
    Recognize the gentleman from Illinois, Mr. Lipinski, for 
five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Mr. Bolden, I just wanted to begin by saying I was pleased 
to see that in the year that we have been forced to make tough 
funding decisions, your fiscal year 2013 budget request for 
aeronautics R&D Programs prioritizes safety and NextGen, which 
I think are critically important. Despite some concerns that I 
have about cuts to fundamental research, this budget does try 
to remain true to NASA's aeronautics mission, and I know that 
oftentimes that ``A'' is forgotten in--the first ``A'' in NASA 
is Aeronautics, with all the focus on space, but I hope--I am 
happy to see what is in this budget generally for aeronautics 
and want to--hope that you continue that focus and that 
Congress will also continue to fund that.
    Now, I want to move now to your plans regarding the 
Commercial Crew Integrated Capability, and what is going on 
with that. There were a few questions about that earlier about 
the safety issues and how you are dealing with that. And as you 
said, once a design is selected, it will be held to NASA's 
safety requirements.
    What I am concerned about is what are the contingency plans 
you have if none of the designs that result from the CCiCap 
meet these requirements. Are you going to be--as the plans 
evolve, is NASA going to be doing any review of the design 
plans to ensure that this does not happen? You know, getting to 
the point where we are expecting, we have put the funding into 
these. We have been expecting that these are going to come 
through, and then the design doesn't meet the safety 
requirements.
    So what is NASA doing to prevent that from happening, 
getting stuck in that spot?
    Mr. Bolden. Congressman, what we have done is we have made 
available to anyone who is interested in even considering 
potential bidding on a commercial crew system, we have provided 
them with the vehicle design requirements for a commercial crew 
vehicle. They have that in hand. We have also provided them 
with human rating standards, and so that there is no question 
about whether they are reasonable or not, industry helped us to 
develop those requirements and standards, and in some cases 
they had standards that were even more stringent than ours. 
When that was the case, then we said, okay, you can use the 
NASA standard or you can stick with your own company standards. 
So it is NASA's standard or better.
    And they know what that is, and our thought is that they 
will design to those standards and those requirements as they 
go through this 14 to 20-month interim period before we release 
a request for proposal.
    Mr. Lipinski. So then because that is out there, you expect 
that the plans will meet the standards so that when you get to 
the end, they will have that.
    Mr. Bolden. Congressman, hope is not a plan, which is what 
you are implying, and I am not, my plan is not hope. We have 
put what we call a PIT team. It is called a Partner Integration 
Team, and every viable vendor that we think stands a reasonable 
chance of submitting a proposal for commercial crew, if they 
request it, we provide to them at their cost a PIT team that 
comes from the Johnson Space Center, Marshall, anywhere they 
ask, that acts as, not as consultants but just to observe what 
they are doing, and it is a team that they can say, you know, 
would NASA do it this way.
    And the results that we are seeing from the PIT teams, both 
the reports that I get from Ed Mango and his commercial crew 
program people, but most especially the comments that I get 
from CEOs of companies that say, you know, this is good, it is 
great having NASA team in my facility looking at my work and at 
least telling me that I am headed in the right direction. They 
won't tell me everything I want to know, but they are telling 
me I am headed in the right direction.
    So that has given us an increased level of confidence that 
we are going to get a good product.
    Mr. Lipinski. All right. With my 20 seconds left I know 
earlier on, Mr. Sensenbrenner raised questions about the Space 
Station. You had that, you showed the book that you have about 
the benefits of the Space Station. So before I go and look at 
the book, what would you tell me is the greatest benefit that 
we are receiving from the Space Station?
    Mr. Bolden. The one greatest benefit?
    Mr. Lipinski. If you want to go on, it is up to the 
Chairman how long you can go.
    Mr. Bolden. No, no, no. No, sir. I would say--I will give 
you, and I will use the name Don Pettit. One of the greatest 
benefits from the International Space Station is it allows a 
guy like Don Pettit, who is in orbit right now, to talk to kids 
every day. Don Pettit is a modern Mr. Wizard, and he mesmerizes 
kids when he talks to them, and some of you have had an 
opportunity to be in on video teleconferences into classrooms.
    That one reason alone makes Space Station worth it.
    Mr. Lipinski. Thank you. I yield back.
    Chairman Hall. The Chairman recognizes the gentleman from 
Texas, Mr. McCaul, for five minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Bolden, welcome, and thank you for your service to our 
country, and I agree with you. The kids. There is nothing 
better than taking an astronaut through the schools and 
watching them, their faces light up, and it piques their 
interest, and math and science, as you know, is so important. 
And so thank you and your astronauts for what they do.
    I have just a couple of questions on a timeline for things 
and how this is going to go forward under the proposed budget 
for the SLS and Orion.
    Your budget appears to be lower than what was appropriated 
for the program and well below the authorized amount, yet the 
timeline does not change. And so my question is do you really 
see that as a realistic expectation, and if so, where do the 
efficiencies come from that allow you to do that?
    Mr. Bolden. Well, we have gone to school on the 
Constellation Program for one thing. So we had a great lessons 
learned session among the people who are now with SLS and MPCV, 
with the folk in the Constellation Program as they phased out. 
Many of them are now SLS, MPCV persons.
    We don't know for certain the dates we have given, the 2017 
date for an un-crewed test is pretty hard because that is 
dependent on design and manufacturing. It is pretty much set in 
place. The 2021, crewed mission date could change. Bill 
Gerstenmaier and his folk are telling me we have a number of 
reviews. We have performance, cost schedule reviews that are 
still to be done in this coming year that will allow us to make 
a better assessment and give us a better estimate of when the 
first crewed mission can be flown.
    But 2021, is a conservative date right now.
    Mr. McCaul. For the first crew mission?
    Mr. Bolden. For the first crewed mission.
    Mr. McCaul. And then 2017 would be the first----
    Mr. Bolden. 2017 is the first uncrewed test of the 
integrated vehicle. What hopefully you all are excited about is 
2014, two years from now, we are going to fly Orion. It is a 
Lockheed Martin run test at our request, but they have chosen a 
Delta IV to put Orion on and send it into two highly-elliptical 
orbits that will allow it to make a reentry as it would be 
doing if it were coming back from the moon or an asteroid, and 
our plan is for it to have a successful intact reentry and 
recovery. It will buy down significant risks from the Orion 
vehicle that we won't later have to do.
    Mr. McCaul. And so then prior to 2021, in terms of human 
spaceflight, we will have to rely essentially on the Russians 
and the Chinese. Is that correct?
    Mr. Bolden. No, sir.
    Mr. McCaul. Okay.
    Mr. Bolden. If we are able to continue the progress that we 
are making right now with the Commercial Crew Program, and 
Congress does agree to fund at the level that the President has 
asked for this year, we will be no later than 2017, in having 
an American capability to take astronauts to the International 
Space Station and other low-earth orbit destinations.
    There is a possibility that if we are funded at the level 
requested that that could be accelerated, but that, again, the 
2017 time is an estimate based on, you know, our--what we saw 
in working with----
    Mr. McCaul. Then it would be fair to say that prior to 
2017, we will have to rely on the Chinese and the Russians.
    Mr. Bolden. I wish I could say differently but----
    Mr. McCaul. Yes.
    Mr. Bolden [continuing]. We will rely on----
    Mr. McCaul. I wish you could, too.
    Mr. Bolden. Yes.
    Mr. McCaul. Is the plan to go back to the Moon or just 
orbit the Moon and then try to hop on an asteroid? I mean, what 
is the vision here?
    Mr. Bolden. Congressman, the plan right now is the first 
destination for humans is an asteroid in 2025. The ultimate 
destinations for humans is the Martian environment, whether 
that is landing on a moon of Mars or landing on the Martian 
surface is the mid '20, '30s, but as the President even says 
himself, you got to walk, crawl before you can get there, and 
so the asteroid is an intermediate step in getting to Mars.
    It is possible that we could put some rovers that are 
presently being developed and tested at the Johnson Space 
Center, we could put them on the moon and run tests with them, 
but--what we do between now and the first crewed mission in 
2021, 2025, is still in work.
    Mr. McCaul. Well, that would be very interesting to watch.
    Last, I got 30 seconds, I know that you are going to have 
multiple companies participating in this commercial 
spaceflights, but only one at the end of the day is going to be 
picked. Is that correct?
    Mr. Bolden. Congressman, I hate to use the term hope. My 
plan is that we will have a minimum of two American companies 
that are capable of providing transportation to low-earth 
orbit, to the International Space Station because that gives us 
reliable, redundant, routine access to space from an American 
capability.
    Mr. McCaul. And what would be the time frame on that?
    Mr. Bolden. 2017 right now, and that, again, we need to be 
certain that we understand that the 2017 date is forecast or 
based on fully funding the President's request for commercial 
crew, which to some may seem like an increase, but it is 
actually saying we really meant $850 million is what we need to 
get us to 2016, 2017.
    And I think I said it but somebody has told me I should 
make sure every member of the committee understands we are only 
dependent on the Russians for transport to the International 
Space Station. We have no bilateral activities with China in 
case I was----
    Mr. McCaul. No. That is a good point.
    Mr. Bolden [continuing]. I confused someone.
    Mr. McCaul. I see my time has expired. Thank you so much, 
Mr. Bolden.
    Chairman Hall. Charlie, I am going to hold you to that 2030 
date. I will be 106.
    Mr. Bolden. Mr. Chairman, and I told you, don't give up. My 
wife and I lived in Japan for two years, and we actually talked 
with some young ladies who were 120.
    Chairman Hall. Young ladies?
    Mr. Bolden. Ladies. I am just--yes, sir. There is hope.
    Chairman Hall. Okay. Thank you.
    The Chair recognizes the fine gentleman from California, 
very patient, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
want to thank General Bolden for the fine briefing that I had 
yesterday and for the record, Mr. Chairman, I want to make sure 
that I, again, mention and Representative Fudge helped me bring 
up the issue of cryogenic propellant storage and transfer as a, 
really vital technology, and I was very satisfied with our 
conversation and discussion yesterday as to the importance of 
that technology and recognition of that.
    Let me just mention before I get into some of the 
transportation issues and Space Station as such, there was an 
article I saw in the news, and I get my news on the Internet 
now, you know, and what is the headline news, and asteroid 
headed toward the world. Okay, and that is what it said. So I 
went, my gosh. An asteroid is headed towards the world, and it 
was the same asteroid that we have known about, and they just 
declared that as it swings around the second time, again, 
people realized and have stated for the record that we don't 
know what earth's gravity is going to do to the actual course 
of that asteroid.
    Now, in your NASA budget we do have continued money for 
detection of objects that could hit the earth, and that is an 
important thing that I have been trying to talk about for a 
long time, and I am glad that is still recognized, but there is 
still, and Mr. Chairman, I would suggest that this is a very 
important point, and that is we still do not have a plan in 
place that if that asteroid is, indeed, if shown that its 
course is altered and it is going to hit the world and cause 
billions of dollars of damage and maybe millions of lives lost, 
we still do not have in place a plan of how to deflect one of 
these.
    And I think that it behooves us that maybe we should pay 
attention and just, yes, it might not happen for 100 years or 
1,000 years or it could happen tomorrow. So I would hope that 
we pay a little attention to that, and at least we have kept in 
a shrinking budget the money for detection of these. At least 
we can tell our people they can pray. What do we do about this 
asteroid about ready to destroy our civilization. Well, we can 
pray about it.
    But now onto some other things. I also in order to maintain 
our leadership I would hope that we maintain a good 
relationship, whether it is on the issue I just described or on 
other NASA missions, whether it is deep solar missions, 
exploratory missions or whatever, we are going to have to work 
with our allies and partners, and yet we are now withdrawing 
from the Joint Mars Programs and several other international 
partnerships with the European Space Agency.
    What is that going to do? The 2016 Mars Orbiter and the 
2018 Mars Rover Programs. We backed out of those. What is this 
going to do to our ability to be reliable partners, and 
partnership is so important for success as we have a shrinking 
budget.
    Mr. Bolden. Congressman, our international partnerships and 
international collaboration are key, and they have been 
stressed by the President since he came in office. It is a part 
of our international space, our National Space Policy, and we 
have not stepped away from our European friends. I have asked 
John Grunsfeld, the head of my Science Mission Directorate, to 
put together a team to look at how we restructure the Robotic 
Mars Exploration Program so that we can accomplish the 
objectives that were set out----
    Mr. Rohrabacher. Uh-huh.
    Mr. Bolden [continuing]. By our joint European American 
discussions on ExoMars that fill the priorities for the decadal 
survey, the planetary decadal survey, but also support our 
efforts toward human exploration of Mars.
    So that is in the works. He has now assigned Orlando 
Figueroa, a formal NASA employee, some refer to him as a Mars 
czar, to take the leadership in formulating a strategy that we 
hope to bring to the Appropriations Committees and to this 
committee in time for appropriations work.
    Mr. Rohrabacher. Well, as you are fully aware, General, I 
am very concerned that we have committed ourselves to this new 
mega rocket transportation system which may, I think, siphon 
money away from other projects that are vital, and maintaining 
our reliability with our European partners is vital to the 
success of our future missions. And if we end up in order to 
build this big rocket that may or may not succeed ten years 
down the road, if we end up putting ourselves in jeopardy with 
these other type of things, whether we are talking about 
cooperation or other type of projects that we need to do, then 
we haven't really done a good service for our whole space 
effort.
    But I rely on your judgment. As we have all said, we are 
grateful for your service to the country.
    Mr. Bolden. Thank you, Congressman.
    Mr. Rohrabacher. Thank you, General.
    Mr. Bolden. Thank you.
    Chairman Hall. The Chair recognizes the gentleman from 
Illinois, Mr. Costello, for five minutes.
    Mr. Costello. Mr. Chairman, thank you, Mr. Chairman and 
Administrator Bolden. I had hoped to be here earlier but got 
tied up. I got a couple of brief questions.
    One, I would like to refer to a statement that was recently 
made by the ASAP Panel. They made the following statement, and 
it is minutes from a recent meeting, and I quote. ``What is the 
purpose of the Commercial Space Program? Is it to transport 
humans to the ISS? Is it to nurture a commercial space 
industry? Or is it something in between?''
    The ASAP believes there is now a sea change in the 
objective to be one of supporting industry's capability to 
deliver national economic benefit. If we are going to ask the 
U.S. taxpayers to invest in this program, I think that it is 
necessary that we are absolutely clear on what the objective is 
of the Administration.
    One, I would ask you do you agree with the statement made 
by the ASAP?
    Mr. Bolden. I do.
    Mr. Costello. And, two, what--can you explain the primary 
objective of the Administration?
    Mr. Bolden. Joe Dyer and the members of the ASAP and I have 
had this discussion particularly with my senior leadership. The 
objective of the Commercial Crew Program originally was to 
service the International Space Station, and that is still a 
primary objective for us.
    When we were funded at the level of $406 million in the 
fiscal year 2012 budget, it caused us to slip the expected 
delivery date of a commercial capability to we think, we hope 
that we can be no later than 2017. But what it did was it put 
us in a posture that we are not guaranteed programmatically 
that we can have a commercial capability in time to support the 
International Space Station. So it means that by default the 
Congress and the Administration have agreed that we are going 
to develop a commercial capability for the benefit of the 
American economy, and it will serve other purposes, but it may 
not make it in time to serve the International Space Station.
    And that is why I keep emphasizing the critical importance 
of fully funding the President's request for Commercial Crew 
because we do not, I cannot afford to have the gap increase 
from now until 2017, even farther out. It is a programmatic 
risk that we have incurred by going to this strategy that we 
are on now, not a safety risk.
    So I do want to make sure that everybody understands that. 
There is no safety risk, no increase in our risk to safety to 
the crews by going with a changed strategy. The risk is in 
programmatics. Until I can get someone under contract and hold 
their feet to the fire as we have had this discussion all day, 
I can't guarantee a date of delivery. I can never guarantee a 
date, but I sure can get closer when we enter into a contract, 
and that is where I want to get.
    Mr. Costello. Let me ask you about NASA's involvement in 
the Next Generation of the Air Traffic Control System. As you 
know, I chaired the Aviation Subcommittee, and I am the Ranking 
Member there now.
    How effective in your opinion has NASA been in working with 
the FAA to move NextGen further to implementation?
    Mr. Bolden. I am proud to say we have been incredibly 
effective. If you ask the industry, specifically Continental 
Airlines, United Airlines, Southwest Airlines, who have flown 
in tests particularly in the en route transportation changes 
that are coming with NextGen, they will tell you they see 
results already that have resulted in millions of dollars of 
savings in fuel costs just by implementing some of the systems 
that we have developed.
    Being able to do direct descent, direct ascent to a cruise 
altitude has changed dramatically the cost of fuel for the 
airline industry.
    Mr. Costello. And when you say that ``we'' have developed, 
are you talking about NASA?
    Mr. Bolden. We are in collaboration with the FAA. Most of 
the work on the NASA part in the en route, the traffic 
management portion that you are addressing----
    Mr. Costello. Right.
    Mr. Bolden [continuing]. Is done at Ames and the Langley 
Research Centers. That is our primary focus, and that is what 
we are bringing to the team. It is a DOD, FAA, NASA team trying 
to do this, and so we have delivered as best we can with the 
funding we have our parts of the traffic management portion.
    Mr. Costello. Last question. The proposed budget before us, 
in your opinion what will NASA look like with the proposed 
budget today in the year 2020?
    Mr. Bolden. Oh, NASA in the year 2020, we talk about this a 
lot, with the budget that we have today, if we are able to 
demonstrate that we can accomplish the plans that we have 
presented, you, Members of the Congress, will have much more 
confidence in us, and you are going to increase my budget by 
the time we get to 2020, and I think you will see increased 
spending in aeronautics research, you are going to see totally 
different types of airplanes being designed because we will 
have a large-scale test bed for commercial and cargo 
transportation. You won't hear NASA talking about commercial 
crew because that will have been turned over to the private 
enterprises, and that will not be in my budget. It will be a 
line item for purchase of crew service for transportation. I 
won't be developing it. It will be industry's.
    You will see us wanting more money so that we can go to 
places farther away than Mars because we are confident that we 
are going to make it to an asteroid in 2025, and we are 
confident we are going to put humans in the Martian 
environment, and my granddaughter is going to be pressing on 
somebody because--she then wants to take humans to a far more 
distant planet.
    And I don't say that with any facetiousness at all. With 
the budget that we have in place, with the vision that the 
President has allowed us to present for him, that is what 2020 
is going to be.
    Mr. Costello. I thank you, and I thank you, Mr. Chairman.
    Chairman Hall. Thank you, sir.
    The Chair recognizes the very patient gentleman from 
Alabama, my friend, Mo Brooks. Five minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    Mr. Bolden, you have said that NASA has made some tough 
budget decisions. As we ponder that statement for a moment, let 
me emphasize some facts. While in fiscal year 2011, NASA's 
budget was $18.4 billion. In fiscal year 2012, it looks like it 
is going be $17.77 billion. In fiscal year 2013, requesting a 
cut of $60 million to $17.7 billion, at the same time in fiscal 
year 2011, Federal Government spending went up $141 billion, an 
increase, while we are looking at cuts for NASA, and then we 
have a Presidential budget that seeks to increase spending by 
$200 billion, from $3.6 to $3.8 trillion.
    And so I am curious as to why NASA is having to absorb this 
cut atmosphere in the context of a Presidential budget that 
increases spending by more than $200 billion.
    But having said that, with respect to the human spaceflight 
fiscal year 2013 budget request, it appears that those 
decisions targeted the Space Launch System and Orion Multi-
Purpose Crew Vehicle Program for budget cuts, while doubling 
the Commercial Crew budget over fiscal year 2012's 406 million 
appropriated levels to 829.7 million, well above the authorized 
levels.
    Last fall you announced an agreement among NASA, the White 
House, and Congress the top priorities for NASA over the next 
five years. Space Launch System and Orion were stated as top 
priorities on the list.
    Please explain why just a few months later NASA seems to 
have already changed its priorities, again favoring Commercial 
Crew Transport above development of the Space Launch System and 
those systems required for deep space exploration.
    Mr. Bolden. Congressman, the budget we supported, that we 
submitted supports an ambitious exploration program. As we have 
always said and you have said, it is difficult times, so we had 
to make some difficult decisions. The three priorities that you 
mentioned are collaborative. They go together. They don't stand 
alone, and that was well thought out. Those priorities are SLS 
and MPCV for exploration supported by Robust Technology 
Development Program. I don't quite have the Robust Technology 
Development Program in place yet. ISS, sustainment beyond 2015 
to at least 2020. I cannot support ISS if I don't have a 
commercial crew and cargo capability, so that is vital, and 
then the James Webb Space Telescope to open vistas to our 
universe that we have never done before.
    They all go together. James Webb will help us with our 
exploration. Commercial Crew will make it possible for me to 
take the money that I am spending now and helping them develop 
that capability to put it on exploration and on the subsequent 
pieces of the evolvable heavy-lift launch system. We still have 
pieces to add, and I can only do that if I free myself up from 
the cost of paying the Russians $450 million a year for access 
to space.
    So they go together. If you isolate any one of them, then 
the agreement that the President made with the Congress falls 
apart, and none of the priorities get accomplished.
    Mr. Brooks. Can I get to a follow-up question then? The 
2010 NASA Authorization Act, and I emphasize 2010, authorizes 
$2.6 billion for the Space Launch System and other necessary 
support for fiscal year 2013, yet the President's fiscal year 
2013, request is $1.3 billion or roughly half for Space Launch 
System, attributing the decrease to diversion of approximately 
$405 million to a new account entitled Exploration Ground 
Systems.
    What percentage of this $1.3 billion, which is half of what 
was expected back in 2010 with the Authorization Act, what 
percentage of that $1.3 billion does NASA plan to actually use 
for direct development of the Space Launch Vehicle?
    Mr. Bolden. Congressman, I don't have a calculator with me, 
so I will take action to take it for the record to give you the 
answer on the percentage, but as we tried to explained before, 
we are doing parallel development of the----
    Mr. Brooks. Well, do you have a range? If you can't give an 
exact percentage.
    Mr. Bolden. I will take it for the record. My brain is 
tired, and I don't even know how to do the percentage thing 
right now.
    Mr. Brooks. May I infer from that that it is clearly not 
100 percent, that it is something less than that? I am asking 
what percentage of the $1.3 billion that you are asking for 
Space Launch System does NASA plan to use for development of 
the Space Launch Vehicle.
    Mr. Bolden. Oh, the amount of money--that is an easy 
answer. One hundred percent of the funds shown for vehicle 
development goes to vehicle development.
    Mr. Brooks. And that is the $1.3 billion?
    Mr. Bolden. And I think that is the $1.3 billion.
    Mr. Brooks. All right.
    Mr. Bolden. The reason that you do not see $1.9 as you saw 
before is because we made a bad assumption. We assumed that 
everyone would know that we had to develop ground systems in 
order to have a vehicle, a place for a vehicle to fly. It 
didn't work that way, so we backed it out, and as I explained 
earlier, we now have two separate accounts that address ground 
systems. One is 21st Century Launch that is mainly for multi-
user facilities at the Kennedy Space Center, and then 
Exploration Ground Systems that is totally for the SLS and 
MPCV.
    And I think the number is about $407 million for Ground 
Systems totally, and then so what you see in the line item for 
SLS is strictly for vehicle development for the heavy-lift 
launch vehicle.
    Mr. Brooks. All right. You have answered my question. Just 
one closing remark.
    Mr. Bolden, I appreciate your service. I also appreciate 
what you have done for NASA and how NASA has represented 
America so well. It truly is American exceptionalism at its 
best, and I yearn for the day where we no longer have to thumb 
a ride with the Russians, and I yearn for the day when we can 
have a President that we can call the NASA President or the 
American Exceptionalism President for space efforts and 
exploration like we had in the '60s and in the decades 
thereafter.
    And anything we can do to help make this President have 
that name, I would love to be able to help you with.
    Mr. Bolden. Congressman, I yearn for the day when you and I 
will agree that we have that President.
    Mr. Brooks. Well, when he will quit cutting NASA, we might 
get to that day.
    Mr. Bolden. We will agree to disagree on how good he is. I 
am very happy.
    Chairman Hall. We yearn for the day when we just have a 
nominee.
    Okay. Charlie, you have been great. We thank you for your 
very valuable testimony and members for their questions, and as 
you know, the members may have some questions to ask you, and I 
ask you to please answer those, and I know you will.
    The record will remain open for two weeks for additional 
comments from Members, and Mr. Administrator, thank you for 
today. You are excused, and this hearing is adjourned.
    Mr. Bolden. Thank you very much.
    Chairman Hall. Thank you, Charlie.
    [Whereupon, at 4:59 p.m., the Committee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Hon. Charles F. Bolden, Jr., 
Administrator, National Aeronautics and Space Administration

Questions Submitted by Chairman Ralph M. Hall,

Committee on Science, Space and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               Appendix 2

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Additional Material for the Record

Additional Material Submitted by Hon. Charles F. Bolden, Jr.,

as Requested During Hearing


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Letter to Chairman Ralph M. Hall from Charlene M. Anderson

Associate Director, The Planetary Society



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Additional Information


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>



</pre></body></html>
